HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Georgia and Florida for July 1,
2005, Through June 30, 2006," (A-04-07-03033)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Georgia and Florida for
July 1, 2005, Through June 30, 2006," (A-04-07-03033)
May 15, 2008
Complete
Text of Report is available in PDF format (544 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 1, 2005, through June 30, 2006, we
estimate that the Georgia Department of Community Health (the State agency), which
manages the Georgia Medicaid program, paid $4,332,000 ($2,622,000 Federal share)
on behalf of beneficiaries who should not have been eligible due to their
Medicaid eligibility in Florida.  Medicaid eligibility in each State is based on
residency.  If a resident of one State subsequently establishes residency in
another State, the beneficiarys Medicaid eligibility in the previous State
should end.  From a statistical random sample of 100 beneficiary-months totaling
$83,000 in Medicaid services, the State agency made payments for 29
beneficiary-months totaling $45,000 for services provided to beneficiaries who
should not have been eligible to receive Medicaid benefits in Georgia.  The
remaining 71 beneficiary-months were for services to beneficiaries who were
eligible to receive the benefit.  We recommended that the State agency work with
the Florida Medicaid agency to share available Medicaid eligibility information
for use in determining accurate beneficiary eligibility status and reducing the
amount of payments made on behalf of beneficiaries residing in Florida.  The
State agency generally agreed with our recommendations.